         Investigative Report
                       On Allegations Against Julie MacDonald,
                   Deputy Assistant Secretary, Fish, Wildlife and Parks




This report contained information that has been redacted pursuant to 5 U.S.C. §§ 552 (b)(2), (b)(5), (b)(6), and (b)(7)(C) of
 the Freedom of Information Act and 5 U.S.C. § 552a(k)(2) of the Privacy Act. Supporting documentation for this report
              may be requested by sending a written request to the OIG Freedom of Information Act Office.
                                        Results in Brief
       The Office of Inspector General (OIG) initiated this investigation based on an anonymous
complaint alleging that Julie MacDonald, Deputy Assistant Secretary (DAS), Fish, Wildlife and Parks,
had been involved in unethical and illegal activities. Specifically, the complainant alleged that
MacDonald had bullied, insulted, and harassed the professional staff of the U.S. Fish and Wildlife
Service (FWS) to change documents and alter biological reporting regarding the Endangered Species
Program. As our investigation progressed, we also developed information that MacDonald had
disclosed nonpublic information to private sector sources.

        Through interviewing various sources, including FWS employees and senior officials, and
reviewing pertinent documents and e-mails, we confirmed that MacDonald has been heavily involved
with editing, commenting on, and reshaping the Endangered Species Program’s scientific reports from
the field. MacDonald admitted that her degree is in civil engineering and that she has no formal
educational background in natural sciences, such as biology.

       While we discovered no illegal activity on her part, we did determine that MacDonald
disclosed nonpublic information to private sector sources, including the California Farm Bureau
Federation and the Pacific Legal Foundation. In fact, MacDonald admitted that she has released
nonpublic information to public sources on several occasions during her tenure as Deputy Assistant
Secretary for FWS.

       The OIG Office of General Counsel’s review of this investigation indicates that MacDonald’s
conduct violated the Code of Federal Regulations (C.F.R.) under 5 C.F.R. § 2635.703 Use of
Nonpublic Information and 5 C.F.R. § 2635.101 Basic Obligation of Public Service, Appearance of
Preferential Treatment.

        This case is being referred to the Department of the Interior (DOI) for potential administrative
action against MacDonald.

                                          Background
        Julie MacDonald came to the Department of the Interior in July 2002. She served as senior
advisor to the former Assistant Secretary until 2004, when she was promoted by then Secretary Gale
Norton to Deputy Assistant Secretary for Fish, Wildlife and Parks. MacDonald is a civil engineer with
a master's degree in management. She began her federal career as a hydraulic engineer with Interior's
Bureau of Reclamation in 1979. In 1987, she commenced a career in public policy. She has been a
staff consultant in the California Legislature and served as senior staff to a former California Senate
minority leader. A former California Governor later appointed her as Associate Secretary of the State
Health and Welfare Agency and then as Deputy Secretary for Legislative Affairs in the California
Resources Agency. In the latter position, she was responsible for gaining bipartisan passage of new
provisions in the California Endangered Species Act. DAS MacDonald has oversight of FWS
operations including the examination of Endangered Species Act (ESA) reviews, and five-year Critical
Habitat Designations (CHD) reviews.



                                                    2
       Congress enacted the ESA in 1973. The purpose of the ESA is to conserve, or recover, the
ecosystems upon which endangered and threatened species depend. Section 4 of the ESA directs the
Secretary of the Interior to determine by regulation whether a given species should be listed as
endangered or threatened, based upon the “best scientific and commercial data available…after
conducting a review of the status of the species.”

        The Department is required by statute to conduct a review of every listed Endangered Species
(ED) at least every five years. This is to determine whether, based on the best available science, each
listed species should have its status either lowered from endangered to threatened, raised from
threatened to endangered, delisted altogether, or remain unchanged.

         The term critical habitat refers to a specific area within the geographical area occupied by the
species, at the time it is listed. Critical habitat includes habitat areas that are both occupied and
unoccupied by listed species that are essential to the conservation of the species. FWS must designate
critical habitat “on the basis of the best scientific data available and after taking into consideration the
economic impact, the impact on national security, and any other relevant impact, of specifying any
particular area as critical habitat.”

        The legal review and clearance procedure for rule-making documents prepared under Section 4
of the ESA, which was modified in 2004, describes the path ED and CHD packages take to be
published at the Federal Register.

        Usually operating under a court ordered deadline, ED and CHD review timelines for
completion vary from 12 to 18 months. After a draft report is completed, the Regional Office,
including the Regional Solicitor’s Office, review the field’s findings; the Regional Solicitor’s Office
conducts a draft legal analysis of the report, which is sent to FWS headquarters; at headquarters, the
Assistant Director for Endangered Species and the Department Solicitor’s Office review the report for
legal issues and other concerns. Changes and comments can be made to the draft, but then it is sent
back to the Regional Office for a formal legal review by the Regional Solicitor’s Office. The regional
attorney assigned to the review can surname the document if he/she agrees that the report has legal
sufficiency (can withstand a potential lawsuit); they can also disagree and not surname the final.
Whether the draft is surnamed or not, it goes back to the Department’s Solicitor’s Office, the FWS
Director, and the Assistant Secretary for Fish, Wildlife and Parks, including Deputy Assistant
Secretary MacDonald. According to the policy of the Chief of Staff for the Department, Brian
Waidmann, the document must be surnamed before leaving DOI, usually by Barry Roth, Deputy
Associate Solicitor for Parks and Wildlife. Waidmann also reviews the package before it goes to the
Federal Register for publishing.

        When FWS suspects that a species is sliding toward extinction, it places a notice in the Federal
Register describing the situation and the studies that led to this conclusion. Independent scientists and
others, including the public, may comment on the proposed listing. If FWS determines, usually within
one year, that the species does deserve listing, it places another notice in the Federal Register. Thirty
days later, the listing becomes effective. Unlike other parts of the Endangered Species Act, the listing
of a threatened or endangered species is based solely on science, not on economics or other factors.




                                                     3
                                  Details of Investigation
Altering/Changing Scientific Documents

        On April 11, 2006, the OIG received an anonymous complaint from an employee of FWS
alleging unethical and illegal activities by MacDonald. The complainant stated that MacDonald had
persistently harassed, bullied, and insulted FWS employees to change documents and “ignore good
science” related to the Endangered Species Program. After initiating a preliminary inquiry into these
allegations, we opened an investigation.

       On October 30, 2006, an article appeared in The Washington Post regarding DAS MacDonald
and her consistent rejection of FWS staff scientist’s recommendations to protect animals and plants
under the ESA. Several issues were raised in the article which required further investigation.

         When we interviewed the former Director of the FWS Endangered Species Program (ES), he
stated that many of the scientific reports his office has issued have been edited extensively by
MacDonald, who has no background in biology, and cited the Sage Grouse Risk Analysis as an
example. He explained that many other officials in MacDonald’s position have made changes to
reports to reflect their political philosophy, but MacDonald took it a step further by involving herself at
the field level. He explained that MacDonald regularly bypassed managers to speak directly with field
staff, often intimidating and bullying them into producing documents that had the desired effect she
and the former Assistant Secretary wanted.

         The former ES Director discussed one instance in which MacDonald interfered in FWS critical
habitat fieldwork. He said that in central California, FWS had been collecting data where vernal pools
were located to designate them as a critical habitat. He said FWS was conducting the work under a
court order with a required date of completion. He explained that several days before this date, FWS
sent its report to MacDonald, who then determined that the economic cost of designating the area as a
critical habitat was unacceptable. The former ES Director said MacDonald ordered him to revise the
report to reflect her position.

Agent’s Note: Vernal pools are miniature ecosystems: natural depressions covered by shallow water
for variable periods from winter to spring, they are typically dry for most of summer and fall. A
diverse array of plants and animals adapted to a waterlogged spring followed by a parched summer
has evolved that thrive under these conditions. Many of these are native species endemic to vernal
pools or related wetland habitat. Because of the extreme environment, there are relatively few
introduced species that can compete with the natives. In addition to providing habitat for the resident
species, vernal pools provide resting sites for migrating birds and foraging grounds for bald and
golden eagles.

       The former ES Director said MacDonald reached this conclusion after she had accessed a
California Department of Development Web site and researched business development figures from
the counties involved with the critical habitat. He stated that she had misread the figures and based her
decision on a mistake, although she later acknowledged that she interpreted the figures incorrectly.

       The former ES Director said that overall, MacDonald did not want to accept petitions to list
species as endangered, and she did not want to designate critical habitats. He said the overall effect


                                                    4
was to minimize the Endangered Species Act as much as possible or ensnare it in court litigation,
which happened often.

         We interviewed the Assistant Director for External Affairs, FWS, who stated that MacDonald
would not accept the field’s scientific findings and would apply science from alternative outside
sources. She said MacDonald would use information from these sources as “the best science” and
insist field employees revise their findings to fit what she wanted.

       The Assistant Director for External Affairs described MacDonald as “an angry woman” who
had been abusive to her and had become a liability to FWS. She stated that MacDonald had
demoralized the FWS program with her interference in endangered species studies – often reaching
“way down the line” to have reports reflect what she wanted.

        When we interviewed the Chief of the Division of Consultation, FWS, he said that while he has
not personally experienced or witnessed any inappropriate behavior by MacDonald, many of the field
biologists had expressed concerns similar to the OIG complainant. The Chief said he believed that
MacDonald’s policy regarding endangered species was not to regulate them unless there was scientific
proof showing otherwise. He said that unfortunately, in most cases, there is rarely definitive scientific
proof, leaving uncertainties. The Chief of the Division of Consultation said MacDonald, when
evaluating scientific reports, has leaned more toward the question of: “Does the science fit the policy?”

       When we interviewed the Assistant Manager, California/Nevada Operations (CNO), FWS, he
explained he has managed or was the lead biologist for the past eight years on numerous studies under
the ESA and CHD. FWS would typically not establish CHD for a species until sued by environmental
groups to do so. The process involved in CHD would follow the actual listing of an endangered
species. [Ex. 5]

        The CNO Assistant Manager explained how ESA issues get to court. The DOI and FWS are
sued in federal court to review the status of an ED species (list/delist) or CHD. A deadline date is
established for the review to be completed. The CNO Assistant Manager’s staff would begin
compiling scientific and biological data on the issue. Initial draft of the issue would be given to the
Regional Solicitor’s Office for legal review and sent back for revision. The final draft is reviewed for
legal sufficiency by the Regional Solicitor’s Office and sent to FWS headquarters in Washington,
D.C., for further comments and revisions. The CNO Assistant Manager said many reviews are not
surnamed by the regional attorneys because they are legally vulnerable due to administrative
procedures ([Ex. 5]).

        With respect to the California Tiger Salamander CHD and listing of the Distinct Population
Segment (DPS), there was a push by DAS MacDonald to combine a large central area of California
with two other smaller DPS for the salamander. According to CNO Assistant Manager, that proposal
was eventually rejected by the court, as well as science, when it was determined that there were genetic
differences in each population of the salamander that would prevent their combining the DPS.

        The Endangered Species Coordinator, CNO, FWS, reiterated the California Tiger Salamander
experience during her interview. She was the team coordinator on the FWS determination of
threatened status for the Central California DPS of the California Tiger Salamander. The CNO ES
Coordinator said DAS MacDonald was not happy that there were two DPSs in the north and south
regions of California and wanted to consolidate these into a central California salamander population;

                                                    5
         FWS employees disagreed with the consolidation. MacDonald had a number of objections in
the final salamander rule to the CNO’s findings. This was a controversial issue because consolidating
the population segments from the north and south regions into the central population would diminish
their status as ‘endangered’ to the central region’s lesser designation of ‘threatened.’ The ES
Coordinator commented that MacDonald was able to get what she wanted on the final salamander
ruling; however, the court overruled the Department and kept the north and south DPSs as endangered,
while adding the central region as threatened.

       The CNO Assistant Manager stated that FWS Ecological Services does not factor in economic
issues when reviewing endangered species for a listing. Economics does become an issue though in
CHD. The economic issues would be something that senior management at DOI may take into
consideration in their decisions in the process. The Secretary of the Interior can overrule FWS’
research based on economic considerations as long as it does not lead to the extinction of the species.
The CNO Assistant Manager added that FWS research has to be repeated over and over based on the
challenges, lawsuits, and pendulum of politics. He also stated that there has been a lot of pressure on
his department in CNO over the last three years, “but we have toed the line.” He explained,
“Everything needs to be consistent with the law and the science.”

        The CNO Assistant Manager stated that the CNO is at the center for continual lawsuits by the
private sector and environmentalists and that the environmental groups particularly like the Ninth
Circuit Court of Appeals for ESA issues. He commented that the Regional Solicitor’s Office rarely
surnames their legal reviews on ED/ CHD issues. The normal path for his office’s work (aside from
legal review) would be from himself to the CNO Manager, to FWS Deputy Director Marshall Jones, to
FWS Director Dale Hall, and then the to the Special Assistant to the Assistant Secretary for Fish,
Wildlife and Parks, the Deputy Assistant Secretary and the Assistant Secretary, Fish, Wildlife and
Parks would weigh in with the Secretary’s Chief of Staff. Deputy Associate Solicitor Barry Roth
would surname the FWS packages before sending them to the Federal Register. The CNO Assistant
Manager said if DOI management (Assistant Secretary, Chief of Staff) wants something accomplished
policy wise, it does not matter whether the Regional Solicitor’s Office surnamed the rulemaking
package or not; the DOI’s Deputy Associate Solicitor can, and frequently does, use his surname
authority to move the rule to the Federal Register.

        The CNO Assistant Manager commented that working with Julie MacDonald “has been one of
the most challenging times in my entire career.” He stated that MacDonald intimidated some FWS
employees and added that it was very unusual for a person of her position to directly contact field
biologists and challenge them on their work. He said MacDonald would relate to the various FWS
personnel she contacted that she was calling on behalf of the former Assistant Secretary. The CNO
Assistant Manager stated that the CNO Manager would verify that information by calling the former
Assistant Secretary himself to ensure that he was the source of the inquiry and not MacDonald. The
CNO Assistant Manager related there was a fair amount of “explicit” conversations with MacDonald
that the former Assistant Secretary “wanted this and that done” and it caused a lot of stress on his staff.

       We interviewed the Chief of the Endangered Species Division, CNO, FWS; he works for the
CNO Assistant Manager. The CNO ESD Chief stated that Julie MacDonald “was in your face all the
time, but never inappropriate.” The CNO ESD Chief described MacDonald as “a pain in the butt.”

       The CNO ESD Chief stated that he was responsible for much of the research on the Delta
Smelt fish as an ESA issue. There was a recovery plan established in 1990 for the Delta Smelt, and

                                                     6
there was also a plan for delisting the Smelt if the population index was exceeded three of the next five
years. In 2003, the California Farm Bureau Federation (Farm Bureau) produced a report that the Delta
Smelt was no longer threatened. The Farm Bureau report was not referenced, cited, or published with
any scientific research. As a result, FWS asked the U.S. Geological Survey (USGS) to conduct a peer
review. USGS completed the review and criticized the Farm Bureau’s report. There is still an ongoing
lawsuit against FWS for not delisting the Smelt based on the recovery plan and whether the population
index is accurate. The CNO ESD Chief stated that MacDonald challenged the basic population index
that FWS biologists have always used and claimed that the USGS peer review was “no good.” In the
current lawsuit by the Farm Bureau, there was an e-mail provided to the Farm Bureau that has caused
controversy. Agent’s Note: The e-mail was ultimately determined to have been provided by
MacDonald. The presiding judge on the case demanded that FWS explain its position since the e-mail
makes the FWS appear confused over its own stance on the Smelt’s listing under the ESA. The CNO
ESD Chief added that just because an endangered species’ recovery plan is met, that does not mandate
delisting. He said MacDonald was highly opinionated about what she believed was the right way to
evaluate the controversy and she did not support FWS research or the peer review by USGS.

       The CNO ESD Chief related a series of phone conversations and meetings with MacDonald,
during which she kept pressuring him to make subtle changes to his report or research. Although,
according to CNO ESD Chief, in some cases it was just changing words, he had to involve other CNO
management so that his report did not begin to just mirror what MacDonald wanted him to say. The
CNO ESD Chief opined that the degree of involvement by MacDonald was unprecedented for a DAS.

       The CNO Manager FWS, was interviewed and said that most issues on the ESA are court
driven. With respect to DAS MacDonald, the CNO Manager related that he has been around a long
time with FWS and never took anything MacDonald said or wanted at face value. He would contact
the former Assistant Secretary directly or fly to Washington, D.C., to verify MacDonald’s requests and
present his view on the ED and CHD reviews coming from the CNO.

        The CNO Manager stated that his office’s confrontations with MacDonald had become much
better since Dale Hall had become FWS Director. Thompson opined that political appointees should
make changes in policy but not interfere with biologists doing their jobs. There were times
MacDonald was helpful in her critical reviews, but the CNO Manager viewed her as ineffective in her
overall approach. In the Delta Smelt issue, the CNO Manager stated that he received an enormous
amount of pressure from MacDonald. The presiding judge requested a memo for inclusion into the
Smelt Administrative Record (a record is kept on all reviews) explaining the circumstances
surrounding an e-mail by MacDonald to the CNO Manager and other CNO officials regarding a press
release on the Smelt. MacDonald allegedly sent the e-mail to a friend in the Farm Bureau, who
brought it to the attention of the judge and prompted the request. In the memo, the CNO Manager
identifies MacDonald as being the source of much of the conflicting DOI internal debate over the
Smelt. The CNO Manager said he believed that the Farm Bureau dropped its lawsuit on the five-year
status review of the Smelt because the science did not support the claims for delisting.

       The CNO Manager stated that there are 30 to 50 lawsuits on his desk in any week and that it
comes with the territory, the politics, the agency, and the geographical area he supervises. He stated
that MacDonald would often put a slant on the rules that would compromise FWS’ position and
success in court.



                                                   7
        The CNO Manager was aware of DOI/FWS headquarters personnel who wanted to file a
hostile work environment complaint against MacDonald. He said his employees at CNO were
definitely stressed, pushed, and yelled at by MacDonald. The CNO Manager stated he would interject
at any point when he felt MacDonald had clearly stepped out of her authority and was demeaning to
his staff, even to the point of halting conference calls and not calling MacDonald when she had stepped
over the line.

        The CNO Manager concluded by saying that MacDonald was a prolific writer and made him
and his staff do an incredible amount of work, which was often unproductive. He added he felt
confident that he and his staff remained professional throughout their contacts with MacDonald despite
not feeling MacDonald always shared that basic approach.

        The OIG interviewed the Assistant Manager, Region 1 Portland, FWS, who said that she heads
up the Endangered Species Review Section for Region 1. The Portland Assistant Manager informed us
that the recently retired Region 1 Director was very frustrated in his contacts with MacDonald.

       The Portland Assistant Manager commented that Julie MacDonald intimidated FWS personnel
within Region 1. She instructed her staff to tell MacDonald that they would need to go through their
supervisors when they were badgered with questions by MacDonald. She related that MacDonald
would curse and yell at her, but she never felt intimidated or threatened by MacDonald because the
Portland Assistant Manager was confident that her 20 years of government service and quality of work
could withstand the verbal attacks; however, she sympathized with the less senior FWS employees
who might not have felt as secure on the receiving end from a senior manager. She described
MacDonald as lacking the basics in managerial style.

        The Portland Assistant Manager stressed to her staff to be impartial in their work, be complete,
and, above all, remain professional and dedicated to the overall mission of FWS. She commented that
MacDonald was very critical and would find mistakes on things that were incomplete, which was a
good thing, but her confrontational style tainted any positives related to her review. The Portland
Assistant Manager also added that MacDonald would go around managers to get to the lowest level
FWS employees. This was considered to be unprofessional and caused additional problems within the
region since many of the biologists were not used to that type of direct contact from a senior manager
in the Assistant Secretary’s corridor.

       The Portland Assistant Manager said that MacDonald was very frustrated over CHDs. On the
designation of critical habitat for the Bull Trout, for example, there were specific exclusions for federal
agencies and not federal lands, as MacDonald had wanted. The exclusion of federal lands meant more
miles of critical habitat eliminated.

Agent’s Note: In a number of e-mails and comments on the Bull Trout CHD, MacDonald forced a
reduction in critical habitat miles in the Klamath River basin from 296 to 42 miles.

       The Portland Assistant Manager stated Region 1 has produced numerous completed ESA
reviews over the past three years and MacDonald has never overturned any of her staff’s reviews;
however, she said many Region 1 decisions on ESA reviews were revised as a matter of policy by
MacDonald or another Fish, Wildlife and Parks senior manager’s discretion. The Portland Assistant
Manager stated MacDonald has never told her that she could not list or delist an endangered species.


                                                    8
      The Assistant Manager commented that she has been with the government long enough to
know there are a lot of political issues that affect agency decisions.

        The Portland Assistant Manager stated that although MacDonald lacked a professional
managerial style, she was unaware of any known incidents in which a Region 1 FWS employee felt
threatened enough to file a hostile work environment complaint against MacDonald. The Assistant
Manager commented that MacDonald would invoke the former Assistant Secretary’s name on many
occasions to obtain what she wanted from the field. She said that the former regional director ran a lot
of interference, while MacDonald put a lot of pressure (using the former Assistant Secretary’s name)
on the Region.

        In closing, the Portland Assistant Manager stated that there was a lack of oversight by DOI
senior management to keep MacDonald in check and advise her of her role in the process. The
Assistant Manager stated that after FWS Director Dale Hall was appointed in October 2005, he quickly
realized that it was unprofessional for MacDonald not to follow a chain of command and it hindered
the rulemaking process to have MacDonald involved at the field level.

        We interviewed the Chief, Classification and Conservation, FWS, who stated that MacDonald
often interjected herself into the scientific process. She cited MacDonald’s involvement in an FWS
study of Preble’s Meadow Jumping Mouse as an example. The mouse was listed in 1998 as a
threatened species under the ESA.

        On February 2, 2005, FWS issued a finding on a petition to delist the Preble's mouse and
proposed to remove the mouse from the federal list of threatened and endangered species. The
delisting proposal was primarily based on the genetic research conducted by a zoologist formerly of
the Denver Museum of Nature and Science. The zoologist’s study claimed that the Preble’s mouse
was not a species unto itself and was part of a more common species of mouse. The Classification and
Conservation Chief said that based on this information, MacDonald wanted to delist the species from
the endangered list.

       According to the Classification and Conservation Chief, in seeking to use the best science
possible in making a final decision, FWS later commissioned a USGS biologist to do an independent
genetic analysis of several meadow jumping mouse subspecies. The USGS study results, provided to
FWS on January 25, 2006, raised significant questions about the conclusions drawn by zoologist in his
study.

        Given the apparent inconsistencies between these reports, said the Classification and
Conservation Chief, the FWS contracted with Sustainable Ecosystems Institute (SEI) to organize an
independent scientific review panel to analyze, assess, and weigh the reasons why the data, findings,
and conclusions of the USGS biologist differ from those of the zoologist. The Chief said MacDonald
wanted to hire an outside consultant other than SEI. On July 21, 2006, SEI delivered to FWS their
report, which stated that based on the “best available science” it appears the Preble’s mouse is a
distinct species on at least some basis. A final determination by FWS on the status of the Preble’s
mouse is pending.

          The Classification and Conservation Chief opined that MacDonald is more interested in
political views than getting it “right.” She said that in many instances, FWS establishes a ruling on a
critical habitat in the Western United States, has it published in the Federal Register, and then has it

                                                    9
immediately challenged in court by business interests such as water and power companies, cattlemen’s
associations, commercial and residential housing developers, and farm bureaus. According to the
Chief, FWS has been losing many of these challenges, and FWS budget resources are being wasted
when a court finds fault with a ruling two or three times on the same habitat review. Further, the
Classification and Conservation Chief claimed that several of the Regional Solicitor Offices will not
surname, or sign off on, the rule making documents (ED/CHD reviews) or policy decisions because
they believe they are not legally sufficient.

        During the investigation, we found an example of the legal wrangling involved with a critical
habitat ruling described in an article in the San Francisco Chronicle on May 17, 2003, regarding the
Alameda Whipsnake. According to the article, the Alameda Whipsnake dispute started in 1999 when
the Center for Biological Diversity, an environmental group based in Tucson, AZ, sued FWS for
failing to designate critical habitat for the whipsnake. The environmental group prevailed in its suit and
in 2000; FWS designated more than 400,000 acres of land as critical whipsnake habitat. Following
that designation, a coalition including the Home Builders Association, the California Chamber of
Commerce, and the California Alliance for Jobs sued FWS alleging it violated the ESA by not
adequately defining the habitat area or considering its economic impact. The Pacific Legal Foundation
(PLF) represented the coalition in this case and was successful in overturning the original protected
habitat of the whipsnake.

        The article quoted a spokesperson for FWS in Sacramento, CA, who stated that FWS spent a
lot of money on a process that was lawsuit-driven to designate a habitat, after which it was lawsuit-
driven to get it dismantled. According to the spokesperson, this illustrates the drain on the FWS budget
having to contend with constant lawsuits from either business interests or environmental groups.

Agent’s Note: According to their Web site, the PLF is a conservative law firm representing various
business interests. It is a self-proclaimed national leader in the effort to reform the ESA and raise
awareness of the Act’s impact on people. They have successfully mounted a number of legal
challenges to ED/CHD reviews throughout the Western United States on behalf of their clients such as
the California Farm Bureau, Washington Farm Bureau, California State Grange, Arizona Cattle
Growers’ Association, and the California Cattlemen’s Association.

        When the OIG questioned her regarding her involvement in the Delta Smelt case, MacDonald
related that she has not had to testify in court, but she did have to file a clarifying memorandum, co-
signed by CNO Manager, as to the circumstances surrounding her e-mail to CNO officials regarding a
controversial press release by CNO on the Smelt.

        According to DAS MacDonald, when she attended meetings at Western Regional Offices, it
was not beyond the realm of possibility that she swore at field personnel when challenging them on
their scientific/biological findings. She said she generally will match the tone of whoever is speaking
to her. She recalled that early in her tenure with DOI, the quality of the ED/CHD reviews emanating
from the field was bad. She added that the reviews have since improved.

Regional and Department Solicitors’ Comments on the Legal Review Process

       We interviewed an attorney from the Department Solicitor’s Office in the Main Interior
Building (MIB). The attorney has worked on FWS legal issues regarding ED and CHD reviews.


                                                   10
       During the past four to five years, he said, federal listings involving ED and CHD reviews have
been accomplished under court ordered deadlines.

        The attorney from the Solicitor’s Office described the process of how a CHD review gets
published in the Federal Register. He said if there is a legal dispute between the Regional and
Department Solicitor’s Offices, the final decision concerning the ED and CHD review packages is
made by Deputy Associate Solicitor Roth or Solicitor David Bernhardt, if necessary. According to the
attorney, Roth and Bernhardt both have the ability to elevate the surnamed review to the DOI’s Chief
of Staff despite legal insufficiencies cited by the FWS Regional Solicitor’s Office.

       We interviewed the Assistant Regional Solicitor, Solicitor’s Office, FWS Region 1, Portland,
OR, who described his work as involving either litigation, legal review, or rule making as it applies to
the ESA.

        The Portland Assistant Regional Solicitor stated he has conducted approximately 15 ED/CHD
legal reviews and that the administrative record for these reviews generally consists of factual support,
scientific data, public comment, and peer review. When asked why he does not generally surname on
ED/CHD reviews, the Assistant Regional Solicitor commented he has not surnamed a document in six
years due to the legal insufficiency of the documents. He states that he looks at the rule, the rationale
within the rule, past judicial decisions, whether it is factually supported, and whether there are any
hopes of public support.

        The Portland Assistant Regional Solicitor related that he and FWS personnel are always under
court ordered deadlines to meet review dates. Normally when he gets a review, there is already a
deadline looming and he attempts to turn them around in 24 hours; however, it often takes a week
when questions need to be asked of the field biologists.

        The Assistant Regional Solicitor commented that often what is being proposed or sent to him
for review is a legal stretch. Due to the heavy workload of the field biologists and the ever-present
court deadlines, the regional reviews are not particularly good. The initial review package from the
field on a CHD or an ED listing/delisting package may be delivered to him lacking elements the field
biologists should have included. The Portland Assistant Regional Solicitor often spends time
correcting these mistakes and then does the initial review.

        The Portland Assistant Regional Solicitor described the review process for a CHD and ED
package. He said the completed package would go to the Federal Register, usually the day before it is
due, even though from his perspective the package was legally insufficient. The Assistant Regional
Solicitor said the former Deputy Associate Solicitor used to rationalize that even though he surnamed a
legally insufficient document, it kept the Secretary of the Interior from being held in contempt of court.
The Portland Assistant Regional Solicitor commented that the former Counsel to Secretary Norton,
believed the former Deputy Associate Solicitor was actually signing ESA issues as being legally
sufficient.

        The Portland Assistant Regional Solicitor recalled two teleconference calls on CHD for Bull
Trout and the Sage Grouse that he had with DAS MacDonald and other Regional and headquarters
FWS officials. MacDonald wanted a 90 percent reduction in acreage for the Bull Trout’s critical
habitat. The Assistant Regional Solicitor remembered distinctly that MacDonald was “quite hostile,
raised her voice repeatedly, and cut people short as they were explaining.” The Portland Assistant

                                                   11
Regional Solicitor sent the attorney in the Solicitor’s Office at MIB an e-mail with the subject, “and
the Red Queen was talking backwards,” after the conference call. The Portland Assistant Regional
Solicitor wrote, “Re: today’s call. I’m still reeling from my little taste of it, but its [sic] Alice in
Wonderland every day for you, isn’t it?” The Assistant Regional Solicitor opined that MacDonald was
disrespectful, rude, and unprofessional, and said, “never in over 20 years of government service” had
he seen a political appointee behave like she did.

       The Portland Assistant Regional Solicitor was assigned the legal review for the designation of
Columbia and Klamath populations for the Bull Trout habitat. He cited three reasons for not
surnaming the document and a fourth regarding the preamble disclaimer as being inappropriate and in
need of deletion from the final rule on the Bull Trout.

       Regarding the other conference call on Sage Grouse with MacDonald, the Portland Assistant
Regional Solicitor said the interaction with MacDonald was even worse than on Bull Trout. On Sage
Grouse, there was a deadline approaching and a major issue involving state regulations for protecting
the species. He described the Policy for Evaluating Conservation Efforts (PECE), in which state
conservation efforts are screened under defined criteria to validate conservation plans. The Assistant
Regional Solicitor said the policy is very well-written, if FWS just followed it. For Sage Grouse, three
FWS regions (Regions 1, 2, and 6) reviewed state plans and determined that conservation efforts did
not meet the PECE policy. The Portland Assistant Regional Solicitor said once MacDonald was
informed, she claimed that FWS came up with the wrong conclusions and instructed them to go back
and do the review again. He termed this behavior by MacDonald as “the most brazen case of political
meddling” he had seen. [Ex. 5]

       In an e-mail to his supervisor, the Portland Assistant Regional Solicitor said that the former
DOI Deputy Solicitor, who was in on the conference call, opined that, “…FWS has received
inadequate supervision [relating to Sage Grouse and PECE policy] and that it’s time for us to start
‘meddling’ in their work.”

        When asked about the preamble disclaimer language on their legal review memo (which the
Portland Assistant Regional Solicitor believed was initiated by the former Assistant Secretary in 2001
or 2002), he opined that it is a waste of time and makes FWS look reluctant to carry out its duties,
casting a negative light on the entire process. The Portland Assistant Regional Solicitor stated he
worked with attorney at the MIB a few months ago to change the verbiage in the preamble and that the
Assistant Solicitor for Fish & Wildlife, MIB, supposedly has referred it to Assistant Secretary for Fish,
Wildlife and Parks David Verhey for further review.

       The Assistant Regional Solicitor, Solicitor’s Office, CNO, FWS, Sacramento, CA, stated that
he has been doing FWS reviews for the past seven years and has done approximately 20 reviews since
2002. These reviews typically consist of listings, 90-day findings, 12-month findings, preliminary
CHDs, and final CHDs.

        The Assistant Regional Solicitor in Sacramento recalled the Alameda Whipsnake ruling that he
had surnamed as being legally sufficient and from which he learned a lesson because the ruling was
overturned in court. He commented that he has not surnamed a CHD since 2002. In his legal analysis
of the California Tiger Salamander listing, which included the consolidation of the three DPSs that
MacDonald wanted and obtained in the final ruling, the Assistant Regional Solicitor in Sacramento


                                                   12
concluded that it was legally insufficient. The final ruling proceeded to the Federal Register, was
immediately challenged, and was overturned by a federal district court.

        The Assistant Regional Solicitor in Sacramento said that ED and CHD reviews always have
looming deadlines and they have to be surnamed by the Department Solicitor’s Office before going to
the Federal Register. He related that if there are legal concerns, the Assistant Secretary for Fish,
Wildlife and Parks would become involved. There are monthly calls back and forth, and legal
objections are discussed. The preamble disclaimer language added to the final rules is always debated
and “the higher pay grades make the final decision.” As to the legal analysis, the Assistant Regional
Solicitor in Sacramento said, “MacDonald is not in my chain of command. We work for the Interior
Secretary through the Solicitor. MacDonald found that out early in her career.” The Assistant
Regional Solicitor in Sacramento commented that he had never had a one-on-one discussion with
MacDonald. He has raised objections to the rubber stamping of ESA packages at senior levels in the
Department despite them being identified as legally insufficient at the regional level; he said, however,
“Policy trumps science within the Assistant Secretary’s corridor on many occasions.”

       The Assistant Solicitor for Fish and Wildlife, Solicitor’s Office, DOI, Washington, D.C., said
the bulk of their work is with the ED, CHD, and litigation issues with the ESA.

        He described the typical process for legal analyses of ED and CHD reviews conducted at the
regional office level. Sometimes, however, he said that in between the packages going from the
Assistant Secretary’s Office to the Chief of Staff’s Office, they are reviewed by Deputy Associate
Solicitor Barry Roth. The Assistant Solicitor for Fish and Wildlife said he provides legal advice
(weaknesses in case, potential for legal suit, etc.) to Roth and usually it involves two points of
consideration: one, whether to surname the document to avoid being held in contempt of court for
failing to provide the Federal Register a rule by the court ordered deadline; and two, whether to
surname the document as being defensible in court if challenged or surname the document noting the
legal concerns raised by the Regional Solicitor’s Office. The main concern is to publish the best
decision possible within court deadline requirements.

        According to the Assistant Solicitor for Fish and Wildlife , since the Bush Administration came
into office in 2001, DOI senior management has conducted a balancing of risk factors involved with
sending ED and CHD rules to the Federal Register with the knowledge that there are legal problems
with the packages. Obviously, he said, the Assistant Secretary’s Office policy agenda involves a
certain amount of litigation risks and they are prepared to absorb expected losses.

       The Assistant Solicitor for Fish and Wildlife said that in the past four years that Julie
MacDonald has been with the Assistant Secretary’s Office for Fish, Wildlife and Parks, over 75
percent of the legal reviews his office has received from the FWS western regional offices have not
been surnamed.

       The Assistant Solicitor for Fish and Wildlife was asked if he had felt any pressure on the ED
and CHD issues from DAS MacDonald regarding the number of non-surnamed documents coming
from the regions. He said he felt no pressure from MacDonald because she is not in his chain of
command; rather, the pressure comes from the court deadlines his office has to meet.




                                                   13
       The Assistant Solicitor for Fish and Wildlife related that Brian Waidmann, DOI Chief of Staff,
wanted the Solicitor’s Office opinion and surname on ED and CHD packages before they go to the
Federal Register.

        He commented on the preamble disclaimer language for critical habitat that the former
Assistant Secretary had inserted into final CH rules. The Assistant Solicitor for Fish and Wildlife said
that recently in a California federal court decision on Vernal Pools CH designation, the court said
FWS’ failure to consider the recovery benefits of a critical habitat designation was a key point in
remanding the case.

[Ex. 5]

        We interviewed Barry Roth, Deputy Associate Solicitor, Solicitor’s Office, DOI, Washington,
D.C., he stated that when ED and CHD review packages get to him, he is usually under a court ordered
deadline to move them on to the Federal Register; this rarely leaves time to remedy legal problems
with the packages. He acknowledged surnaming the packages before they go to the Federal Register to
avoid contempt of court charges for missing court deadlines. Roth said meeting the deadlines is his
main focus. He does due diligence in reviewing the legal analysis from the Regional Solicitor’s
Office, notes their legal concerns, and signs them. He understands that he is under no statutory
requirement to surname; however, it is DOI Chief of Staff Brian Waidmann’s policy that the package
be surnamed before the final rule goes to the Federal Register.

       Roth said the process for review, commenting, and surnaming has not worked well over the
past few years. There has not been a lot of time to work out the legal problems associated with the
packages before the court deadline arrives. Within the last year, Roth said the process has improved
somewhat as the documents are being delivered with more than one day’s notice.

        Prior to Roth taking on the surnaming duty, the former Deputy Associate Solicitor, was in the
position to last review the ED and CHD packages. Roth said the former Deputy Associate Solicitor
more or less rubber stamped the packages with his signature due to the large amount of packages that
arrived from the field because of time limits imposed by a court deadline. Roth said he has attempted
to give the documents a more critical review before sending them to the Federal Register.

        Roth stated that FWS had been instructed to use a boilerplate preamble disclaimer language
favored by the former Assistant Secretary regarding critical habitat designations. It was seen as a legal
obstacle by several of the Regional Solicitor’s attorneys who review CHD packages, and it was
recently struck down by a federal district court in California.

        Roth related that the FWS work agenda is controlled by the litigation process regarding ED rule
listings/delistings and CHDs. Roth used the term, “unfunded mandate on FWS” to describe how their
work is affected by lawsuits. They do not have the budget to constantly conduct ED and CHD reviews
under court deadlines, in addition to carrying out their normal duties.

        Roth advised that he does not always agree with everything DAS MacDonald does; however,
he did say she works hard and he has approached their business relationship as her “legal adviser.” He
normally talks to her on ED and CHD matters when subordinates, an attorney and the Assistant
Solicitor for Fish and Wildlife, feel the need to elevate an issue. Roth said MacDonald customarily
goes through FWS management with her comments and reservations on particular ED and CHD

                                                   14
matters. In matters where Roth and MacDonald have opposing views, he brings the issue to the
attention of Solicitor David Bernhardt. Roth related that Bernhardt was focusing more on ESA issues
than his predecessors.

       Roth was asked if he had knowledge of MacDonald ever releasing deliberative process material
outside of DOI, FWS, and the federal government, he recalled the Delta Smelt e-mail she released to
the California Farm Bureau in 2004.

        The OIG interviewed DOI Solicitor David Bernhardt concerning his role in the ED/CHD legal
review process. Bernhardt echoed his subordinate Barry Roth’s assertion that ED and CHD packages
arrive at the Department usually under a court ordered deadline leaving little time for review before
going to the Federal Register. The overriding concern is to avoid contempt of court for the Secretary
of the Interior. Bernhardt said he has an obligation to give legal advice to the Secretary as to whether
these ED/CHD packages are a bad risk or an assumable risk, given their legal sufficiency, and to
provide the Secretary with options.

         Recently, Bernhardt sent a memorandum to his office attorneys that included a section on the
surnaming of documents. He reminded them that the placing of your surname on a document is an
attestation that they have inquired into and analyzed the factual and legal matters presented in the
document and are satisfied that the matter is in compliance with applicable law. Bernhardt advised
them that it is appropriate to include with their surname comments that describe the scope of the
review or articulate reservations to which their surname is subject, consistent with the duty of due
diligence.

      Bernhardt acknowledged that he has the final decision in differences between Roth and DAS
MacDonald regarding legal concerns with ED/CHD packages. He views MacDonald as a legal client
to whom he provides advice.

       When we interviewed FWS Deputy Director Marshall Jones, he stated several Senior Executive
Service employees within the FWS regional offices have contemplated filing hostile work environment
complaints. He said none of these individuals, however, have gone forward with their complaints.
Jones commented that it seemed like MacDonald had “political heat” on her to change the science
behind the endangered species reviews.

        According to Jones, MacDonald was the former Assistant Secretary’s “attack dog” regarding
ED issues. Jones stated that after the new appointment of Hall as FWS Director, MacDonald had
moderated her interference. He said Hall had “drawn a line in the sand” with MacDonald and had
stated that she has the right to change policy but not the science coming from the field.

       Jones also speculated that MacDonald may have been sharing internal FWS ED documents
with outside sources. He said he based this suspicion on the sources MacDonald used to challenge
FWS field biologist findings. Jones explained that FWS is also being consistently sued in federal court
by private sector entities for missing endangered species review deadlines. He cited the PLF as a legal
group who regularly sues FWS for missing review dates.

        Jones stated that while MacDonald has been correct on several occasions in her challenges of
field research, he emphasized that her position is one of political policy – not scientific finding.


                                                   15
        We interviewed Dale Hall, FWS Director, about the allegations against MacDonald. He stated,
“A lot of that is true”. He said that since October 2005, when he was sworn in, he has been involved in
a “running battle” with MacDonald over the chain of command in FWS and her repeated attempts to
circumvent it.

        As an example of her interference, Hall cited MacDonald’s involvement of a FWS study of the
Southwest Willow Flycatcher, a small bird placed on the ED list in 1995 and whose habitat stretches
from Arizona through New Mexico and into Southern California. He said the FWS Southwest Region
was studying the Flycatcher in order to be in compliance with a September 30, 2003 opinion issued by
the Federal District Court of New Mexico (Center for Biological Diversity v. Norton). Hall was the
Regional Director for that office at the time. He said the biologists were identifying primary
constituent elements, which are elements that endangered species need to live. One of these elements
was the nesting range of the Flycatcher. Hall explained that birds have flying radiuses around their
nests, and the field biologists determined that the Flycatcher’s radius or range was 2.1 miles. He said
MacDonald decided that 1.8 miles was more accurate, and she then argued with the field personnel
about that issue.

        Hall said he told the field staff to inform her of the science behind their findings, and if she still
said to make the change, to go ahead and do so – but to document everything. He said that in the end,
MacDonald had them change the range to 1.8 miles because she was concerned that the 2.1 radius
figure would extend into California. Hall stated that MacDonald had a particular interest in all of the
ED work in California, where her husband maintained the family ranch, and she had previously served
in various California State Legislature positions ranging from staff consultant to a former Republican
Senate Minority Leader, to Associate Secretary of Health and Welfare and Deputy Secretary for
Legislative Affairs under a former California Governor.

       Hall said he had a “face down” with MacDonald over an issue involving the Kootenai River
sturgeon, a white sturgeon fish that resides in Montana and Idaho. Hall explained that the sturgeon
needed certain levels of river flow in order to spawn, and the goal is to have reasonable river flows for
spawning without affecting the operations of the dams1 more than necessary.

        Hall, a wildlife biologist, noted that flow levels are measured in ranges and are not tied into one
specific number. He said the field established the range for the Kootenai sturgeon between 2.3 and 5.9
cubic feet per second. He said MacDonald wanted to be specific and asked the field to change the final
figure to 5.9. Hall said he challenged MacDonald on her assertion and asked her to put it in writing but
that she ultimately relented and they kept the 2.3 to 5.9 range.

        Hall stated that MacDonald later circumvented the chain of command and went directly to the
field biologists at the river to request documents and to remind them to “be sure” about the science.
He noted that the dam operators would have benefited from using the 5.9 figure.

        We interviewed the former Assistant Secretary for Fish, Wildlife and Parks, who related that he
did not recall anyone in FWS complaining to him regarding the managerial style of MacDonald. A
quote from the former Assistant Secretary in a Time magazine article from December 13, 2004,
regarding MacDonald’s critique of the Sage Grouse review stated, “She is highly qualified, an
engineer, extremely competent, and reads every single paper cited” by federal biologists in their

1
    There are at least five dams along the river’s route.

                                                            16
reviews. The former Assistant Secretary said he had complete confidence in MacDonald’s abilities,
first as his Special Assistant and then as Deputy Secretary. She frequently spoke for him in matters
regarding ED and CHD with FWS. The former Assistant Secretary said he spoke on a regular basis
with FWS Regional Directors regarding ED and CHD final packages and their associated problems.
He stated he was personally involved in these issues as they were matters of importance to him.

        The OIG interviewed another former Assistant Secretary for Fish, Wildlife and Parks, who
subsequently assumed the position and who supervised MacDonald for approximately seven months
before accepting a position in the private sector. The other former Assistant Secretary stated that there
were several disagreements between FWS Director Hall and MacDonald over chain of command
issues and MacDonald’s penchant for communicating directly with field employees over scientific
reporting. The other former Assistant Secretary said Hall and MacDonald differed over the role the
Deputy Assistant Secretary should have in reviewing and editing the scientific reports coming from the
field. He described himself as a “referee” between Hall and MacDonald in several meetings.

        The other former Assistant Secretary commented that he had heard that several FWS regional
directors and office managers were contemplating filing hostile work environment complaints against
MacDonald. He said he had heard that MacDonald “got into the face” of FWS personnel and that she
had a fundamental suspicion of FWS employees because of her belief that they were close with the
environmental groups. He said he has a philosophical difference with MacDonald on how to treat
employees, and he did not agree with her approach.

        When we interviewed Julie MacDonald, she said she is responsible for reviewing, commenting,
and at some times editing critical habitat designation reports and five-year endangered species reviews.
MacDonald said she views her involvement in the Endangered Species Program as part of her duties,
and she challenges the science produced by FWS field personnel and makes them accountable for the
citations and rules they refer to in field reports. She admitted that she is not always right, as in the case
of the vernal pools, but added, “The figures were a mistake and very embarrassing, but they didn’t
make a difference in the outcome of the review.”

        DAS MacDonald considered the Western Regional Solicitor’s Offices to be outside their legal
realm in their opinions and analysis regarding ESA and CHD issues.” She accused the FWS of being
lax in submitting ESA/CHD packages to DOI senior management before court ordered deadlines were
imminent.

        During her interview, DAS MacDonald was asked why she ignored or discounted the Regional
Solicitor’s legal opinion concerning ED/CHD packages. MacDonald replied it was a matter of policy,
it was what worked best, and it was the result of the risk balancing that takes place between policy and
legal insufficiency. MacDonald commented that the former Assistant Secretary was “very” involved
regarding ED/CHD issues [Ex. 5].

       MacDonald echoed Roth’s comment regarding Waidmann wanting everything surnamed before
leaving DOI and going to the Federal Register, describing it as his “informal and unwritten” policy.
MacDonald agreed with Roth stating that in policy disputes with the DOI Solicitor’s Office, she
consults with Bernhardt for resolution.




                                                     17
Misuse of Position

        As our investigation of MacDonald progressed, in addition to the initial allegations, we
developed information that MacDonald had misused her position and disclosed nonpublic information
to private sector sources.

        On April 4, 2006, OIG investigators reviewed MacDonald’s government e-mails, using the
keyword “Pacific Legal Foundation” as a search item because of the number of times this private
sector legal entity appears in newspaper and other media articles related to court decisions involving
ED.

        The e-mail search revealed that MacDonald had sent an FWS document titled, “Interim
Guidance for the Designation of Critical Habitat Under the Endangered Species Act,” with an
attachment that consisted of 147 pages, to a PLF attorney. MacDonald sent this e-mail on February 4,
2004, following an exchange of e-mails she had with the PLF attorney on the subject of draft CHD
policy.

        In those e-mails, the PLF attorney requested information from MacDonald, stating, “Any
information that you can share regarding the draft policy, and general guidance as to the
process/timetable, would be greatly appreciated.” MacDonald wrote back, “I will send you a copy of
the draft but please do not share it with anyone else. It’s still undergoing revision, although the
fundamental legal/policy approach will not change. Does that work for you?” The PLF attorney
acknowledged, “…yes, that would definitely work. You have my word that it won’t go beyond me.
Thanks [the PLF attorney’s first name].”

        Marshall Jones identified the e-mail to the PLF attorney containing the Interim Critical Habitat
Guide as being nonpublic information and classified as internal DOI/FWS documents. Jones stated
that these documents were for “FWS eyes only” and should not have been disseminated outside of
DOI.

Agent’s Note: According to Deputy Director Jones, the Interim Guidance for Critical Habitat
Designation has never been publicly released or published for comment. Jones said it remains an
FWS internal document and probably will remain so indefinitely. During his interview, Jones
speculated that MacDonald may have been sharing internal FWS ED documents with outside sources;
however, he had no evidence to substantiate his contention.

       The former Assistant Secretary stated that he did not give MacDonald permission to release the
Interim Guidance for Critical Habitat Designation Policy to the attorney for the PLF. He added that he
never knowingly gave MacDonald a blanket authorization to release nonpublic information. The
former Assistant Secretary stated that he authorized MacDonald to share matters with whomever
necessary in the course of consultations on issues.

        The other former Assistant Secretary also said he never gave MacDonald permission to release
nonpublic information. He admitted that the issue of MacDonald disclosing nonpublic information
was a rumor within Fish, Wildlife and Parks; however, he said the subject was not officially brought to
his attention in his official capacity as Assistant Secretary.



                                                   18
        During our review, we found another e-mail, dated March 30, 2004, which MacDonald sent to
a non-governmental address. This e-mail included an attachment titled, “Draft [Delta Smelt] 5-Year
Review,” which was an FWS review of a Northern California endangered species, the Delta Smelt.2
During her interview, MacDonald identified the address as her private e-mail account. She said she
often transmitted DOI/FWS documents to her home computer for use during off hours.

         We found the Draft Delta Smelt five-year review was a highly controversial issue within FWS.
In fact, the media heavily reported on MacDonald and her attempts to derail the status review on the
Smelt because it did not support removing protections for the Smelt. FWS released its status review on
the Delta Smelt on March 31, 2004. Originally, the review had recommended that the threatened
listing be continued; however, on April 1, 2004, MacDonald sent an e-mail to FWS CNO Manager, the
CNO Assistant Manager, and the Chief of ESD in the Sacramento office, stating that “…the facts
represented by the Service [released status review] provide an oversimplified and misleading
characterization of what is happening…I have asked the press release be stopped until we have an
opportunity to more accurately characterize the finding and its basis”.

Agent’s Note: The FWS biologists from the Sacramento office who completed their review of the
Delta Smelt five-year draft in March 2004, took the position that there was no justification for delisting
the Smelt, while MacDonald opposed the field decision through her comments in the margins of the
Smelt draft review dated March 30, 2004. As of this date, the Farm Bureau is no longer a part of the
Smelt lawsuit against FWS.

         We discovered several other e-mails sent from MacDonald’s government computer to internet
subscriber addresses outside of the Department. The title of two such e-mails was the “Delta Smelt
letter/report/press release”. These e-mails contained MacDonald’s critical comments regarding the
FWS Sacramento office’s release of a Delta Smelt review letter to the Congressional Affairs office in
Washington, D.C..

        We sent an Inspector General subpoena to AOL for subscriber information for the e-mail
accounts to which MacDonald sent the documents. We identified the recipients as an attorney-advisor
in the Solicitor’s Office at MIB, the father of an individual MacDonald met online, and her child.

        Two weeks after MacDonald sent the above-mentioned e-mails, the California Farm Bureau
made a formal FOIA request for the e-mail and any responses to it (MacDonald had provided a copy of
the e-mail to a Farm Bureau lobbyist and personal friend). An examination of the FOIA file revealed
that the e-mail was designated exempt from public disclosure by DOI’s FOIA office as “inter-agency
or intra-agency memorandums or letters” on July 7, 2004.

        A further review of MacDonald’s government e-mails showed a large Environmental
Protection Agency (EPA) file that was sent to a private AOL account. MacDonald had also sent the
same document to another account ending in chevrontexaco.com.

       Additional reviews of MacDonald’s e-mails show that she regularly meets and communicates
with officials and lobbyists working for the California Farm Bureau Federation and the Building
Industry Association of Southern California. Both of these entities have launched lawsuits against

2
  An IG subpoena to MSN/Hotmail did not disclose relevant subscriber information other than the e-mail address was
initiated in Los Angeles, CA, in 1999.

                                                          19
FWS to force it to review whether certain species should continue to be listed as endangered. Based
on the analysis of several of these e-mails, MacDonald appears to have a close personal and business
relationship with a Farm Bureau lobbyist.

       Examples include an October 4, 2002 e-mail where the Farm Bureau lobbyist asked
MacDonald for information on what FWS has done with the Office of Management and Budget
guidelines attached to the e-mail. He also asked about the status of his request for a meeting between
the former Assistant Secretary and two Farm Bureau representatives to discuss a court decision
concerning FWS land-use restrictions.3 The Farm Bureau lobbyist requested feedback from
MacDonald on these subjects, and MacDonald provided answers in a subsequent e-mail on October 17,
2002.

       We found another e-mail, dated September 30, 2003, from the Farm Bureau lobbyist to
MacDonald, where he asked her, “with respect to the FY 04 appropriations/budget – any issue
regarding the funding for the Fish and Wildlife Service to do the 5 year delta smelt review? where
would the money come from?”

Agent’s Note: MacDonald requested through a series of e-mails to subordinate employees, including
the FWS Associate Director for Budget, Planning and Human Resources, to gather the above
information for her, MacDonald then passed it onto the Farm Bureau lobbyist.

       In another example of MacDonald’s close relationship with the California Farm Bureau
Federation, she voluntarily provided the previously mentioned Delta Smelt e-mail to an attorney for
the California Farm Bureau Federation, who immediately filed the e-mail with the U.S. District Court
in Washington, D.C. The court had been reviewing the Delta Smelt case and Farm Bureau’s attorney
asked the judge to reopen it, citing disarray among the federal defendants as demonstrated by the
MacDonald e-mail.

         Affidavits filed with the court in the Delta Smelt case indicate that the attorney and the lobbyist
testified in District of Columbia Federal District Court that MacDonald provided the objectionable e-
mail to the lobbyist at the Farm Bureau attorney’s request.

        As documented through her government e-mails, DAS MacDonald has met with, lunched with,
spoken to, allowed access to high level DOI officials, and provided nonpublic information on FWS
internal deliberations to lobbyists like the California Farm Bureau Federation lobbyist and private
sector entities such as the California Farm Bureau Federation and PLF over the past four years.

        During her interview, MacDonald admitted to sending the Interim Critical Habitat Guide via
her government e-mail account to a PLF attorney. She acknowledged that the document would not
have been released under a Freedom of Information Act (FOIA) request; however, she said that did not
mean she could not release it to a personal friend, the PLF attorney, as long as the attorney would not
post the document on the PLF’s Web site. Shortly thereafter, MacDonald changed her statement and
said she may have received authorization to release the document to the PLF attorney from her
supervisor, the former Assistant Secretary.



3
    Arizona Cattle Growers v. U.S. FWS

                                                    20
      According to MacDonald, an attorney in the Solicitor’s Office works FWS legal issues for the
Department, and in that capacity, she has sent numerous FWS documents to the attorney’s home
computer for review (when on leave/after hours).

        MacDonald confirmed that she also sent the Delta Smelt document to an on-line game friend
through his father’s e-mail account. MacDonald said she is acquainted with the on-line friend through
internet role-playing games. She said she engages in these games to relieve the stress created by her
job; however, she said she has not played while at work. When asked why she would e-mail an
internal DOI document to a private citizen, MacDonald replied, “I was irritated [with what was
happening regarding the subject of the document] and tried to explain my irritation over the phone;
however, I sent it to him to read for a better understanding.”

Agent’s Note: The on-line game friend is not professionally or personally affiliated with DOI or any of
its entities. MacDonald continues to play games on the internet with the on-line friend; however, she
has not sent any internal DOI information to him since her first interview last summer.

        MacDonald could offer no explanation as to why she sent her child an e-mail containing an
internal DOI/FWS document other than she feels frustrated at times and likes to have third party
reviews of these documents. MacDonald opined that she sent FWS documents to the on-line game
friend and her child to have another set of eyes give an unfiltered opinion of them, negative comments
included.

        MacDonald admitted to sending “Watershed proposed draft rule by the EPA: proposal of a new
framework for accomplishing the water quality planning and management provisions of the Clean
Water Act” via government e-mail to a personal friend, whose e-mail address ended in
chevrontexaco.com. She said she did not remember why she sent the document as an attachment to the
friend but stated, “It probably wasn’t releasable.” When MacDonald was questioned about the second
e-mail, containing a large EPA file, sent to another e-mail address ending in chevrontexaco.com,
MacDonald could not recall whom this e-mail address belonged to.

        MacDonald acknowledged having contact with the Farm Bureau and other lobbying entities,
including a professional relationship with the California Farm Bureau Federation lobbyist. She stated
that she also has a social relationship with the lobbyist. However, she denied giving preferential
treatment to the Farm Bureau lobbyist or his clients. She stated, “I try to respond to everyone/public
when asked for information. It’s my duty as a public servant.” MacDonald stated that the Farm
Bureau lobbyist has no more access than any other person seeking information on FWS programs.

       Title 5 of the Code of Federal Regulations (C.F.R.) § 2635.101 Basic Obligation of Public
Service states:

       Employees shall act impartially and not give preferential treatment to any private
       organization or individual.

       Employees shall endeavor to avoid any actions creating the appearance that they are
       violating the law or the ethical standards set forth in this part. Whether particular
       circumstances create an appearance that the law or these standards have been violated
       shall be determined from the perspective of a reasonable person with knowledge of the
       relevant facts.

                                                  21
         Title 5 of the Code of Federal Regulations (C.F.R.), Chapter XVI, Subpart G, Standards of
Ethical Conduct for Employees of the Executive Branch § 2635.703 Use of Nonpublic Information
states:

       (a) Prohibition. An employee shall not…allow the improper use of nonpublic
       information to further his own private interest or that of another, whether through
       advice or recommendation, or by knowing unauthorized disclosure.

       (b) Definition of nonpublic information. … Is information that the employee gains by
       reason of Federal employment and that he knows or reasonably should know has not
       been made available to the general public. It includes information that he knows or
       reasonably should know:

               (1) Is routinely exempt from disclosure under 5 U.S.C. 552 or otherwise
               protected from disclosure by statute, Executive order or regulation;

               (2) Is designated as confidential by an agency; or

               (3) Has not been actually disseminated to the general public and is not
               authorized to be made available to the public on request.

       An Associate General Counsel of the OIG’s Office of General Counsel reviewed the details of
our investigation and advised that the C.F.R. had been violated under 5 C.F.R. § 2635.101 Basic
Obligation of Public Service because of the appearance of preferential treatment and 5 C.F.R. §
2635.703 Standards of Conduct, Use of Nonpublic Information.

                                            Subject(s)
        Julie MacDonald, Deputy Assistant Secretary, Fish, Wildlife and Parks, Department of the
Interior, Washington, D.C.


                                           Disposition
       The results of this investigation will be forwarded to the Assistant Secretary for Fish, Wildlife
and Parks for appropriate administrative action as warranted.[Ex.5]




                                                   22
